CREDIT CARD AGREEMENT
INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate
(APR) for Purchases

28.8%

How to Avoid Paying Interest

Your due date is at least 23 days after the close of each Billing
Cycle. We will not charge you interest on purchases if you pay
your entire balance by the Payment Due Date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES
Annual Fee
Penalty Fees
 Late Payment Fee


Returned Payment Fee

None
Up to $40

Up to $40

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new
purchases).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is
provided in your Credit Card Agreement below.
We may change APR, Fees, and other terms at any time and for any reason in accordance with
this Credit Card Agreement and applicable law.
The information about costs of the card described in this agreement is accurate as of April 7, 2020. This
information may have changed after that date. To find out what may have changed, please write us at:
Credit First National Association, BK-11/Customer Service, P.O. Box 81315, Cleveland, Ohio 44181-0315.
READ BEFORE YOU SIGN THE APPLICATION OR ELECTRONIC SIGNATURE CAPTURE DEVICE,
OR SUBMIT YOUR ELECTRONIC CONSENT
This is your Consumer Credit Card Agreement (“Agreement”) with Credit First National Association, a
national banking association located at 6275 Eastland Road, Brook Park, Ohio 44142 (“CFNA”). This
Agreement governs the use of your credit card account with us (“Account”) and includes the following
“Related Documents”:




Application - The application or solicitation you signed or otherwise submitted to request the
Account;
Card Carrier - The card carrier we send with the credit card or cards we issue you;
Promotional Credit Plan Terms - Any special terms we provide you if you make a purchase under
a special promotional plan or terms outside of this standard agreement as outlined in Section 6.

The Related Documents are incorporated by reference into this Agreement. Your handwritten, electronic
or digital signature on any document you sign in connection with the use of your card or Account is part of
this Agreement. These documents include, but are not limited to, your card, Application or any accepted
sales slip. Participating merchants that may honor your card are not a party to this Agreement. Please
read this Agreement and keep it for your records.
Federal law provides important protections to members of the Armed Forces and their dependents relating
to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include,
as applicable to the credit transaction or account: The costs associated with credit insurance premiums;
fees for ancillary products sold in connection with the credit transaction; any application fee charged (other
than certain application fees for specified credit transactions or accounts); and any participation fee charged
(other than certain participation fees for a credit card account). Members of the Armed Forces and their
dependents are under no duty to waive their right to legal recourse under any applicable provision of Federal
or State law, including any provision of the Servicemembers Civil Relief Act. Members of the Armed Forces
and their dependents are not required to submit to arbitration as described in Section 19 below or elsewhere
in this Agreement. You may contact us toll-free at 855.209.0588 for information about the Military Annual
Percentage Rate and/or your payment schedule.

AUTHORIZATION
By signing the application, signature capture device or through your electronic consent, you certify to each
of the following statements: You have read and agree to the terms and conditions set forth in this document.
You are applying to Credit First National Association (CFNA) for a credit card with a credit limit up to the
amount for which you qualify. The application information you provided is true, correct and complete, and
CFNA may rely on it. You authorize CFNA to obtain credit reports about you from consumer reporting
agencies in considering this application and subsequently for the purpose of any update, review, renewal
or extension of credit, or in reviewing or collecting on the Account. You understand and agree that by
providing CFNA with a wireless telephone number, you are providing express written consent to receiving
autodialed and prerecorded message calls from CFNA or its servicers, its assignees, or its third party debt
collectors at this number. You authorize us, our servicers, assignees, or third party debt collectors to contact
you by telephone, mail, e-mail, fax, prerecorded message, automated voice, text message, digital,
computerized, or other means allowable by law regarding your Account. You understand that if CFNA
approves your application, CFNA will extend credit to you from its office in Ohio. You agree to be bound by
the terms set forth in the Agreement. You also understand that the Agreement includes an Arbitration
Section that allows you or CFNA to resolve by arbitration claims arising from or related to the
Agreement and your Account through the American Arbitration Association. The Arbitration
Section will prevent you and CFNA from having claims resolved by a judge or jury and prevent you
from participating as a representative or member of any class of claimants for claims subject to
arbitration. Other rights available in court may also not be available in arbitration. You can reject
the Arbitration Section within 30 days after CFNA opens your Account as explained in the
Agreement.
By submitting your application, you acknowledge that you have read, understood and received a copy of
this document and if approved for credit by CFNA, agree to be bound by the terms set forth in this
document.
1. DEFINITIONS.




You and your - each person who requested an Account approved by CFNA.
We, us and our - CFNA or any person or entity to which CFNA sells or gives your Account.
Credit Card or Card - each credit card we issue to you or a person any of you authorizes to use the
Account.



Authorized User - a person any of you authorizes to use the Account and to whom we may issue a
Card.

Other capitalized terms are defined in the Agreement. Defined terms have the same meaning when used
in your monthly billing statement (“Statement”).
2. YOUR PROMISE TO US. You agree to the terms of this Agreement. You promise to do everything this
Agreement requires of you. For joint Accounts, each of you promises to do everything this Agreement
requires. You specifically promise to pay all amounts owed because of transactions made on your Account
by any of you and any Authorized User. You will be bound by this Agreement when you submit an
Application that is approved by us, sign a sales slip using the Card, or use or permit someone else to use
credit provided through the Card or Account. You will use the Card only for personal, family, or household
purposes, and not for business, commercial, or agricultural purposes. You agree that at any time for any
reason we may reissue a Card to you and/or may ask you to return any or all Cards.
A. Default. Your Account will be in default if you fail to do something that this Agreement requires of you,
subject to any restrictions under applicable law. If that happens, we may tell you to pay us immediately
everything you owe under the Account and applicable law. We will tell you in advance and/or give you an
opportunity to cure your default only if applicable law requires us to do so.
3. CREDIT LIMIT. The Credit Limit of your Account is the total maximum amount we allow you to owe us
at any time. If you exceed any credit limit that we have set for your Account, we can still charge you for all
transactions, Interest Charges and other charges (“Finance Charges”) without giving up any of our rights
under this Agreement. We may increase or decrease your Credit Limit at any time at our option. The
reasons for changes may include, for example, your credit history with us, your default under this
Agreement (see Section 2 above), fraud prevention or changes to this credit card program or CFNA policy.
A portion of your available credit may be inaccessible until we confirm that your payment has been honored.

4. MONTHLY STATEMENTS; BILLING CYCLES. We will send you a Statement at the end of each Billing
Cycle in which (a) your Account has a balance of $1 or more, (b) an Interest Charge is imposed or (c)
applicable law requires us to send a Statement. We send only one Statement for your Account each month.
Each Statement will show, among other things, the date on which the most recent Billing Cycle ended (the
“Statement Closing Date” of the Billing Cycle), Previous Balance, Payments and Credits, Transactions,
Interest Charges, other Fees and Charges, Payment Due Date, New Balance and Minimum Payment Due.
A Billing Cycle means the days between Statement Closing Dates.
5. PAYMENTS.
A. Minimum Payment. You may pay all of your Account balance at any time without penalty. You
must pay us at least the Minimum Payment Due for each Billing Cycle by the Payment Due Date shown on
your Statement. The Minimum Payment Due for each Billing Cycle will be the greater of (a) 3.5% of the
New Balance (rounded up to the nearest whole dollar) plus all past due amounts and any Late Payment
Fee, Returned Payment Fee, or unpaid Service Fee incurred during the previous Billing Cycle; or (b) $27
(or any amount less than $27 needed to pay your Account balance in full). The New Balance used to
determine your Minimum Payment Due includes Regular Credit Plan transactions and Promotional Credit
Plan balances (see Section 6 below for a description of Credit Plans).
B. Methods of Payment. If paying by mail, send your personal check or money order, payable in U.S.
dollars, along with the payment coupon to Credit First N.A. at the payment address shown on your
statement. Payments received by 5PM Eastern Time (ET) at the payment address shown on your
statement will be credited as of the business day of receipt. If received after 5PM ET, the payment
will be credited as of the next business day. Payments made through the CFNA website (CFNA.com),
Interactive Voice Response System (IVR, self-service option), or through a CFNA representative
(800.321.3950) prior to 11:59PM ET will be credited as of the same business day; Payments made

after 5PM ET may not be reflected on your account for up to 1-2 business days. Follow all of the
instructions for making a payment specified on your Statement. Any payment that does not conform to
these requirements may not be credited to your Account for up to five days, or may be rejected.
All check payments must be issued by a legitimate U.S. based bank registered to do business in the
U.S. Do not send cash. You agree not to send us any check marked “payment in full” or with similar
terms or conditions. If you do, the check must be sent to our Dispute Resolution Department at a separate
address for inquiries specified on your statement. We can accept such checks as late or partial payments
without losing our right to receive the full amount owed on your Account.
C. Application of Payments. We apply payments first to previously billed Interest Charges and Fees; then
to your purchases. The application of payments may be amended by Promotional Credit Terms. Except as
otherwise prohibited, we will apply payments greater than the required Minimum Payment amount and any
credits to balances on your Account in a way that is deemed appropriate by us. We will also follow the
requirements of applicable law when allocating your payments.
6. CREDIT PLANS.
A. Regular Credit Plan. You may use your Account for transactions that may or may not be subject to
Promotional Credit Plan terms. Any balance of transactions not subject to Promotional Credit Plan terms
will be part of your Regular Credit Plan and treated as your “Revolving Balance.”
B. Promotional Credit Plans. At our option, we may offer Promotional Credit Plans. Any Promotional
Credit Plan offered may apply for a limited period of time. Our rights and your responsibilities will change if
you make a qualifying purchase under a Promotional Credit Plan. If your purchase amount qualifies for a
Promotional Credit Plan, you will automatically be enrolled in promotional financing and the applicable
Promotional Credit Plan terms will be given to you in a separate document. Promotional Credit Plan terms
temporarily modify certain terms of this Agreement for qualifying purchases, and all other terms of this
Agreement remain unchanged. Any temporary modification of Agreement terms for Promotional Credit
Plans will not limit or affect any other rights we have under this Agreement or applicable law.
7. INTEREST CHARGES. We will calculate periodic Interest Charges on your Account for each Billing
Cycle by multiplying a monthly periodic rate (“Periodic Interest Rate”) by the Average Daily Balance
(including new transactions) on your Account. A Periodic Interest Rate is one-twelfth of its corresponding
Annual Percentage Rate (“APR”). We will charge you a Minimum Interest Charge of $2 for any Billing Cycle
in which an Interest Charge of less than $2 would otherwise be imposed.
A. Periodic Interest Rate; Interest Rate. The Periodic Interest Rate that applies to your Revolving Balance
is 2.4% (corresponding APR 28.8%) (“Interest Rate”).
B. How We Calculate Average Daily Balance Subject to Periodic Interest Charges. To get the Average
Daily Balance for your Revolving Balance, we first must determine the daily balance for your Revolving
Balance. To get the daily balance, we take the beginning Revolving Balance of your Account each day. Then
we subtract any payments or credits applied to your Revolving Balance, and any unpaid Interest Charges.
We add to that amount any new Regular Credit Plan transactions, Late Payment Fees, and other Account
fees and administrative charges. We then add up all the daily balances and divide by the number of days in
the Billing Cycle. This gives us the Average Daily Balance for your Revolving Balance. We do not charge
Interest Charges on unpaid Interest Charges, that is, we do not compound Interest Charges.
C. When Interest Charges Begin to Accumulate. Interest Charges accumulate on each purchase from
the later of (a) the date of the transaction or (b) the first day of the Billing Cycle in which the transaction posts
to your Account. Any interest which may have been waived due to the receipt of a payment, and which
payment is later deemed insufficient or rejected will result in the re-application of waived interest to your
account. We do not assess Interest Charges in the following circumstances:

1. If you paid the New Balance at the beginning of your previous Billing Cycle by the Payment Due
Date during that previous Billing Cycle (or if that New Balance was $0 or a credit balance), then:
•

if you pay the New Balance on your current Monthly Statement in full by the Payment Due Date
in your current Billing Cycle. Interest Charges will not be imposed on Purchases during your
current Billing Cycle, and

•

if you make a payment that is less than the New Balance by the Payment Due Date in your
current Billing Cycle, that payment will be credited as of the first day in your current Billing Cycle.

2. If you had a New Balance at the beginning of your previous Billing Cycle and you did not pay that
New Balance by the Payment Due Date during that previous Billing Cycle, we will not charge Interest
Charges on any Purchases during the current Billing Cycle if you pay the New Balance at the
beginning of your current Billing Cycle by its Payment Due Date.
8. FEES.
A. Late Payment Fee. If we do not receive at least the Minimum Payment Due within the timeframes
described in the Method of Payment section (section 5B) on your Payment Due Date, we may add to your
Account a Late Payment Fee of $29; or $40 if you did not make the Minimum Payment in any of the prior
six Billing Cycles by the Payment Due Date. Or;
If we do not receive your mailed payment that is at least the Minimum Payment Due by 5PM ET on your
Payment Due Date, we may add to your account a Late Payment Fee of $29; or $40 if you did not make
the Minimum Payment in any of the prior six Billing Cycles. If we do not receive your online (CFNA.com),
Interactive Voice Response System (IVR, self-service option), or CFNA representative assisted payment
that is at least the Minimum Payment Due by 11:59PM ET on your Payment Due Date, we may add to your
account a Late Payment Fee of $29; or $40 if you did not make the Minimum Payment in any of the prior
six Billing Cycles by the Payment Due Date.
However, the Late Payment Fee will never exceed the amount of your required Minimum Payment to which
the Late Payment Fee relates. Any Late Payment Fee assessed will be added to the Revolving Balance
on your Account.
B. Returned Payment Fee. If your payment by check, ACH, electronic debit or other instrument is
dishonored by your bank or must be returned for any reason, we will add a Returned Payment Fee of $29,
or $40 if you had a returned payment in any of the six prior Billing Cycles, to the Revolving Balance of your
Account. However, the Returned Payment Fee will never exceed the amount of your most recent required
Minimum Payment.

9. LOST OR STOLEN CARD OR IDENTITY THEFT. If you notice the loss or theft of your credit card or a
possible unauthorized use of your card (including suspected identity theft), you should write to us
immediately at CFNA, BK-11/Customer Service, P.O. Box 81315, Cleveland, Ohio 44181-0315 or call us
at 800.321.3950. You will not be liable for any unauthorized use that occurs after you notify us. You may,
however, be liable for unauthorized use that occurs before your notice to us. In any case, your liability will
not exceed $50.

10. ACCOUNT CANCELLATION.
A. How to Cancel Your Account. You (either of you if more than one) may cancel your Account at any
time by notifying us by telephone or in writing. You still must pay the full amount you owe us.

B. We Have the Right to Cancel Your Account. We may cancel your Account and Cards at any time for
any reason. Any Card issued for your Account must be cut in half and the pieces sent to us if we ask. This
includes each Card you gave to others. You still must pay the full amount you owe us, and this Agreement
will continue to apply to any unpaid balance.
11. CREDIT AUTHORIZATIONS. We will authorize all Account purchases in advance. A merchant may
ask you to provide identification. We may not be able to authorize a transaction, even if you have sufficient
available credit, for example if our authorization system is not working or if we suspect possible fraud. We
will not be liable to you if this occurs. We may not authorize a transaction if your Account is over your Credit
Limit or delinquent; if we authorize such a transaction, we do not consider it to be an increase in your Credit
Limit. We are not responsible if any merchant refuses to accept or honor your Credit Card.
12. CREDIT INVESTIGATION AND CREDIT REPORTS. You hereby authorize us to investigate your credit
record. You agree that a credit report may be requested in connection with the processing of an application
for credit, and subsequently in connection with any extension of credit, or any consideration of an increase
to your credit limit, or any renewal or update of your Account, or to take collection action on the Account, or
to investigate disputes regarding the Account. You also authorize us to furnish information concerning the
status and payment history of your Account to credit bureaus and other creditors. If you believe that we
have reported inaccurate information about you to a credit reporting agency, please contact us at CFNA,
BK-11/Customer Service, P.O. Box 81315, Cleveland, Ohio 44181-0315. In doing so, please provide your
Account number, name, address, phone number, and any other supporting documentation, in addition to
specifying the inaccurate information and explaining why you believe it is incorrect. If you have a copy of
the credit report that includes the inaccurate information, please send a copy of that report to us as well.
13. COMMUNICATIONS. You authorize us, or our servicers, assignees, or third party debt collectors to
contact you by telephone, mail, e-mail, fax, prerecorded message, automated voice, text message, digital,
computerized, or other means allowed by law regarding your Account. You agree that we may call you
about your Account using an automatic dialing - announcing device and that these calls will not be deemed
"unsolicited" calls under state or federal law. You understand and agree that by providing us with a wireless
telephone number, you consent to receiving autodialed and prerecorded message calls from us or our
servicers, assignees, or third party debt collector at that number. We may monitor and/or record telephone
calls between you and us to assure the quality of our customer service. You agree that monitoring and/or
recording may be done and that no additional notice to you or additional approval from you is needed.

A. Your Address. We will consider your current address and state of residence to be the same as the
billing address we maintain in our records. You agree to notify us of any change in your name, residence,
or billing address by writing to us at the address shown on your Statement. Any notices required by law
shall be deemed received if mailed to your current address.

14. GOVERNING LAW. This Agreement and your Account are governed by Federal law applicable to a
national bank and, to the extent not preempted by Federal law, the laws of Ohio, without regard to its
conflicts of law provisions. This is the law we mean when we refer in this Agreement to a term that may be
permitted or required by applicable law. We have accepted this Agreement in Ohio.
15. WAIVER. We may, at our discretion from time to time without notice, waive any of our rights under this
Agreement in certain circumstances. We can waive our rights without affecting our other rights. If we waive
any right, we do not waive the same right in other circumstances or at other times.
16. SEVERABILITY. If any provision of this Agreement is finally determined to be unenforceable under any
law, rule, or regulation, all other provisions of this Agreement will still be valid and enforceable.

17. ASSIGNMENT OF ACCOUNT. We may sell, assign or transfer your Account or any interest we hold in
your Account without notice to you. You may not sell, assign or transfer your Account.

18. CHANGE IN TERMS. We may change the terms of this Agreement at any time, and we may add or
delete terms in this Agreement. These changes may include, for example, Interest Charge rates, fees and
this Change in Terms provision. We will give you notice of any change as required by applicable law. Any
change will apply on and after its effective date to new transactions and existing balances on your Account,
except as limited by applicable law.

19. ARBITRATION. For purposes of this Arbitration Section, the terms "we," "us" and "our" refer to Credit
First National Association, its parents, wholly or majority owned subsidiaries, affiliates, predecessors,
successors, assigns, employees, officers and directors. If either you or we choose arbitration, neither you
nor we will have the right to litigate that claim in court or to have a jury trial on that claim, or to engage in
pre-arbitration discovery, except as provided for in the arbitration rules of the American Arbitration
Association (“AAA”). In addition, you will not have the right to participate as a representative or member of
any class of claimants related to any claim subject to arbitration. The arbitrator's decision will generally be
final and binding. Other rights that you would have if you went to court may also not be available in
arbitration. It is important that you read the entire arbitration provision carefully before accepting the terms
of this Agreement.
A "Claim" is any pre-existing, present, or future claim, dispute, or controversy of any kind (including but not
limited to constitutional, statutory, regulatory, common law, contract, tort and equitable claims) arising from
or relating to (a) the credit offered or provided to you or requested by you, (b) the actions of you, us or third
parties, or (c) the validity or meaning of this arbitration provision and every other provision in this Agreement.
You agree that either you or we can choose to have any Claim resolved by binding arbitration. You and
we acknowledge that each waives the right or opportunity to litigate a Claim in a court of law, and
that each agrees to resolve any Claims arising out of this Agreement through binding arbitration.
This Section does not apply to any of our regular Account collection efforts. If this Section (or any part of
it) is determined invalid or illegal under any applicable statute or rule of law, it will be deemed omitted
without affecting any other provisions of this Agreement, which shall remain in full force and effect.
There shall be no authority for any Claims to be arbitrated on a class action basis. An arbitration can
only decide our or your Claim and may not consolidate or join the claims of other persons who may have
similar claims.
Any arbitration will be conducted in accordance with the AAA’s rules applicable to consumer disputes. For
additional information go to: http://www.adr.org/. Any arbitration hearing that you attend will take place in
the federal judicial district where you reside. At your request, we will advance the first $250 of the filing and
hearing fees for any Claim you may file against us; the arbitrator will decide whether we or you will ultimately
pay those fees. This arbitration agreement is made pursuant to a transaction involving interstate commerce
and shall be governed by the Federal Arbitration Act, 9 U.S.C. Sections 1-16. The arbitrator shall apply
applicable substantive law consistent with the Federal Arbitration Act and applicable statutes of limitations,
and shall honor claims of privilege recognized by law. This arbitration provision shall survive repayment of
your extension of credit and termination of your Account.
Judgment upon the award may be entered in any court of law of competent jurisdiction.
You can reject this Arbitration Section if you write to us within 30 days after we open your Account.
Send a letter that you do not agree to the Arbitration Section. The letter must include your name, address
and Account number. Mail the letter to CFNA, BK-12/Legal, P.O. Box 81315, Cleveland, Ohio 44181-0315.
This is the only way you can reject the Arbitration Section. If you reject the Arbitration Section, all other
parts of this Agreement still apply to your Account.

20. ENTIRE AGREEMENT. This Agreement, including the Related Documents incorporated by reference
into it, is the entire agreement between you and us relating to your Account. This Agreement replaces any
other agreement relating to your Account that you and we made earlier or at the same time. If any of the
Related Documents has any information that is not the same as information in this Agreement, we will
follow this Agreement unless the other document says we should follow that document. You may not
modify any term or provision of this Credit Card Agreement.
SIGNATURES. Your handwritten, electronic or digital signature on any document you sign in connection
with the use of your Card or Account represents your signature on this Agreement.

NOTICES:
California Residents: If you are married, you may apply for a separate account.
New York Residents: Upon your request, you will be informed of whether or not a credit report was
ordered, and if it was, you will be given the name and address of the consumer reporting agency that
furnished the report.
Ohio Residents: Ohio laws against discrimination require that all creditors make credit equally available
to all credit worthy customers, and that credit reporting agencies maintain separate credit histories on
each individual upon request. The Ohio Civil Rights Commission administers compliance with this law.
Married Wisconsin Residents: No provision of any marital property agreement, unilateral statement
under Section 766.59 of the Wisconsin statutes or court order under Section 766.70 adversely affects the
interest of CFNA, unless CFNA, prior to the time credit is granted is furnished a copy of the Agreement,
statement or decree or has actual knowledge of the adverse provision when the obligation to CFNA is
incurred.
NJ Residents: Certain provisions of this Agreement are subject to applicable law. As a result, they may
be void, unenforceable or inapplicable in some jurisdictions. None of these provisions, however, are void,
unenforceable or inapplicable in New Jersey.
YOUR BILLING RIGHTS – KEEP THIS DOCUMENT FOR FUTURE USE. This notice tells you about
your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at CFNA, BK-11/Customer Service, P.O. Box
81315, Cleveland, Ohio 44181-0315
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment
on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter

When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also
tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we
believe the bill is correct.
While we investigate whether or not there has been an error:
•

We cannot try to collect the amount in question, or report you as delinquent on that amount.

•

The charge in question may remain on your statement, and we may continue to charge you
interest on that amount.

•

While you do not have to pay the amount in question, you are responsible for the remainder of
your balance.

•

We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
•

If we made a mistake: You will not have to pay the amount in question or any interest or other
fees related to that amount.

•

If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think
you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling
us that you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that
you are questioning your bill. We must tell you the name of anyone to whom we reported you as
delinquent, and we must let those organizations know when the matter has been settled between us. If
we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question
even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current
mailing address, and the purchase price must have been more than $50. (Note: Neither of these
are necessary if your purchase was based on an advertisement we mailed to you, or if we own
the company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at
CFNA, BK-11/Customer Service, P.O. Box 81315, Cleveland, Ohio 44181-0315.

While we investigate, the same rules apply to the disputed amount as discussed above. After we finish
our investigation, we will inform you of our decision. At that point, if we think you owe an amount and you
do not pay, we may report you as delinquent.

IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT

To help the government fight the funding of terrorism and money laundering activities, Federal
law requires all financial institutions to obtain, verify and record information that identifies each
person who opens a new account. What this means for you: When you open an account, we will
ask for your name, address, date of birth, and other information that will allow us to identify you.
We may ask to see your driver’s license or other identifying documents.
R014 CFNA 04/2020

